            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
          STATE OF ILLINOIS
     FOR THE FISCAL YEAR ENDED
             JUNE 30, 2006

     February 2008   A-77-08-00008




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                      SOCIAL SECURITY
MEMORANDUM
Date:   February 13, 2008                                                   Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Illinois for the Fiscal Year
           Ended June 30, 2006 (A-77-08-00008)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Illinois for the Fiscal Year (FY) ended June 30, 2006. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        The accounting firm of KPMG performed the audit. The Department of Health and
        Human Services’ (HHS) desk review concluded that the audit met Federal
        requirements. In reporting the results of the single audit, we relied entirely on the
        internal control and compliance work performed by KPMG and the reviews performed
        by HHS. We conducted our review in accordance with the Quality Standards for
        Inspections issued by the President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Illinois Disability Determination Services (DDS) performs disability determinations
        under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
        reimbursed for 100 percent of allowable costs. The Department of Human Services
        (DHS) is the Illinois DDS’ parent agency.
Page 2 – Candace Skurnik

The single audit reported:

   1. DHS did not calculate interest liability in accordance with the methodology
      outlined in the Treasury-State agreement (Attachment, Pages 1 and 2). DHS
      responded that the State FY 2005 and 2006 interest liability was recalculated
      using the correct methodology (Attachment, Page 2). Since the U.S. Department
      of the Treasury is responsible for oversight of Treasury-State interest liability, we
      are not making a formal recommendation to SSA.

   2. System programmers had inappropriate access to the DHS payroll system and
      personal information contained therein (Attachment, Pages 3 and 4). DHS
      disagreed stating that it has an adequate system of internal controls to ensure
      the propriety of the data in the payroll system (Attachment, Pages 4 and 5).

   3. The Illinois Department of Central Management Services did not establish
      adequate procedures to identify excessive internal service fund balances
      (Attachment, Pages 6 through 8). DHS responded that it has an ongoing
      process for evaluating fund balances, which is in compliance with Federal
      guidelines (Attachment, Pages 8 and 9).

We recommend SSA:

   1. Verify that DHS has adequate access controls in place over its payroll system so
      that the personal information of Illinois DDS employees is secured.

   2. Ensure DHS has a process in place for evaluating internal service fund balances
      that will prevent the Illinois DDS from being inappropriately charged for services
      received.

Please send copies of the final Audit Clearance Document to Ken Bennett. If you have
any questions contact Ken Bennett at (816) 936-5593.




                                                Patrick P. O’Carroll, Jr.

Attachment
Attachment
Page 1 of 9
Attachment
Page 2 of 9
Attachment
Page 3 of 9
Attachment
Page 4 of 9
Attachment
Page 5 of 9
Attachment
Page 6 of 9
Attachment
Page 7 of 9
Attachment
Page 8 of 9
Attachment
Page 9 of 9
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
